Ti

smanme C!QCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-820

JOHN MCMAHON, in His Official
Capacity as Sheriff of San Bernardino County, and
RONALD SINDELAR, in His Official Capacity
as Deputy Sheriff for San Bernardino County,
Petitioners,
Vv.
CHEMEHUEVI INDIAN TRIBE, on Its Own Behalf
and on Behalf of Its Members Parens Patriae, and
CHELSEA LYNN BUNIM, TOMMIE ROBERT OCHOA,
JASMINE SANSOUCIE, and NAOMI LOPEZ, Individually,

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITIONERS’ WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 7496 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of. January, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

wy come oss tps EC Elite Odeo h, Chl

Notary Public Affiant

 

39408
